TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 Screening Tax-Exempt Organizations’ Filing
                   Information Provides Minimal Assurance
                  That Potential Terrorist-Related Activities
                                Are Identified



                                           May 21, 2007

                              Reference Number: 2007-10-082




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                         WASHINGTON, D.C. 20220




                                                   May 21, 2007


MEMORANDUM FOR COMMISSIONER, TAX EXEMPT AND GOVERNMENT ENTITIES
               DIVISION

FROM:                          Michael R. Phillips
                               Deputy Inspector General for Audit

SUBJECT:                       Final Audit Report – Screening Tax-Exempt Organizations’ Filing
                               Information Provides Minimal Assurance That Potential
                               Terrorist-Related Activities Are Identified (Audit # 200610044)

This report presents the results of our review to assess the Exempt Organizations (EO) function’s
efforts to identify and work cases involving tax-exempt organizations and/or related individuals
potentially involved in terrorist-related activities. A significant source of alleged terrorist
support has been the use of charities and nonprofit organizations to raise money, move persons
and materials, and provide logistical support for the international operations. The possibility that
terrorist attacks could be facilitated by charitable organizations exempt from paying taxes
threatens to erode public confidence in both the integrity of the charitable community and the
ability of the Internal Revenue Service (IRS) to regulate this community. This audit was
conducted as part of the Treasury Inspector General for Tax Administration’s Fiscal Year 2006
Annual Audit Plan.

Impact on the Taxpayer
The IRS1 uses a manual process and a limited terrorist watch list to identify instances in which
charitable and other nonprofit organizations may be linked to individuals and/or entities whose
assets have been frozen because they have committed or pose a significant risk of
committing acts of terrorism. As a result, the IRS provides only minimal assurance that
tax-exempt organizations potentially involved in terrorist activities are being identified. If the
IRS does not use all available information to detect possible links of charities and nonprofit

1
  References in this report to the IRS relate specifically to the IRS functions primarily responsible for screening
tax-exempt organizations’ filing information for terrorist-related activities. Applications for Recognition of
Exemption Under Section 501(c)(3) of the Internal Revenue Code (Form 1023) are reviewed by EO function
personnel in Cincinnati, Ohio. Returns of Organization Exempt From Income Tax (Form 990) are reviewed by
Wage and Investment Division personnel in Ogden, Utah.
                       Screening Tax-Exempt Organizations’ Filing Information
                    Provides Minimal Assurance That Potential Terrorist-Related
                                      Activities Are Identified



organizations to known or suspected terrorist organizations or individuals, there is a risk that
these charities will not be reported to the Federal Government authorities fighting terrorism.

Synopsis
The EO function could significantly increase its effectiveness in identifying potential terrorist
financing and safeguarding the charitable sector from terrorist abuse by developing and
enhancing automated systems to compare the large amount of tax-exempt information processed
annually against a list of known or suspected terrorist-related organizations. Currently, IRS
personnel review two key filings2 by tax-exempt organizations to identify potential links to
terrorist activities. In October 2002, IRS personnel started manually comparing
names/organizations on these Forms against a terrorist watch list maintained by the United States
Department of the Treasury Office of Foreign Assets Control (OFAC).3 At the time of our
review, the OFAC terrorist watch list contained approximately 1,600 unique
terrorist/organization names or aliases.
This manual process has identified only a small number of potential terrorist-related cases. The
development of a process that will enable the IRS to systemically match Returns of Organization
Exempt From Income Tax (Form 990) information, as well as consideration of matching
Applications for Recognition of Exemption Under Section 501(c)(3) of the Internal Revenue
Code (Form 1023) data when available in usable format, will significantly increase the
probability of identifying potential terrorist activities related to tax-exempt organizations, allow
for more effective use of IRS resources, and help preserve the public’s trust in the charitable
sector.
On September 16, 2003, Homeland Security Presidential Directive-6 was signed, directing that a
center be established to consolidate the Federal Government’s approach to terrorism screening
and to provide for the appropriate and lawful use of terrorist information in screening processes.
As a result, the Attorney General, the Director of the Central Intelligence Agency, and the
Secretaries of the Departments of State and Homeland Security signed a Memorandum of
Understanding creating the Terrorist Screening Center (TSC) and placed it within the Federal
Bureau of Investigation, United States Department of Justice. The TSC began operations on
December 1, 2003, and is charged with consolidating and maintaining the United States




2
  The two forms are Form 1023 and the Form 990 series, including Form 990, Short Form Return of Organization
Exempt From Income Tax (Form 990-EZ), and Return of Private Foundation (Form 990-PF).
3
  The OFAC terrorist watch list is maintained by the United States Department of the Treasury and contains names
of organizations, countries, and some individuals whose assets have been frozen because they have committed or
pose a significant risk of committing acts of terrorism.
                                                                                                            2
                        Screening Tax-Exempt Organizations’ Filing Information
                     Provides Minimal Assurance That Potential Terrorist-Related
                                       Activities Are Identified



Government’s terrorist watch list.4 The Secretaries of the Departments of Defense and the
Treasury signed an addendum to the Memorandum to join the partnership supporting the TSC in
August 2004. The TSC terrorist watch list currently contains more than 200,000 names
suspected of being involved in terrorist activities.
EO function management officials believe the OFAC is well positioned to identify suspicious
persons who might take advantage of the financial markets to raise or divert funds for terrorist
purposes or to undermine the financial system for such purposes. Department of the Treasury
officials advised us that the EO function is not required to use the TSC terrorist watch list when
reviewing filing data of tax-exempt organizations. However, the TSC terrorist watch list and
other available terrorist watch lists contain more comprehensive lists of potential terrorists and
may be beneficial for the IRS to use, in conjunction with the OFAC terrorist watch list, in its
screening of tax-exempt organizational data.
In addition, since 2004, Tax Exempt and Government Entities Division management has been
working with the Criminal Investigation function to test the systemic matching of Forms 990
Schedule of Contributors (Schedule B) data for possible terrorist connections. This will be
accomplished by comparing filing data against databases of multiple terrorist watch lists,
including the OFAC terrorist watch list. This project is currently in the testing mode, and the
implementation date is unknown.

Recommendations
We recommended the Director, EO, in coordination with key IRS and external stakeholders,
develop and implement a long-term strategy to automate the process used to initially identify
potential terrorist activities related to tax-exempt organizations. In addition, the Director, EO,
should evaluate whether more comprehensive terrorist watch lists, including any applicable TSC
information, should be used in conjunction with the Department of the Treasury OFAC list
during the IRS screening processes, to improve the identification of individuals and/or
organizations potentially involved in terrorist-related activities.

Response
EO function management agreed with our recommendations and plans to develop a long-term
strategy to automate the checking of names on Forms 1023 and 990 against a terrorist watch list.
EO function management is currently testing and evaluating software that will check names on

4
  The TSC was assigned responsibility for consolidating terrorist screening information to be used by Federal, State,
local, territorial, tribal, and foreign governments and private sector organizations across the country and around the
world. The TSC terrorist watch list is a consolidated database that contains all information permitted by law on the
identities of individuals known or appropriately suspected to be involved in terrorist activities obtained from these
entities.
                                                                                                                3
                   Screening Tax-Exempt Organizations’ Filing Information
                Provides Minimal Assurance That Potential Terrorist-Related
                                  Activities Are Identified



Forms 990; they will develop similar plans for checking names on Forms 1023. In addition,
EO function management agreed to meet with Federal Bureau of Investigation personnel to
evaluate how the TSC information may serve their needs and will evaluate whether other, more
comprehensive terrorist watch lists can be used. Management’s complete response to the draft
report is included as Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.




                                                                                         4
                          Screening Tax-Exempt Organizations’ Filing Information
                        Provides Minimal Assurance That Potential Terrorist-Related
                                          Activities Are Identified




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Current Screening of Tax-Exempt Documents for Potential Terrorist
          Activities Is Inefficient and Incomplete........................................................Page 3
                    Recommendations 1 and 2: ................................................Page 8


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 9
          Appendix II – Major Contributors to This Report ........................................Page 11
          Appendix III – Report Distribution List .......................................................Page 12
          Appendix IV – Management’s Response to the Draft Report ......................Page 13
         Screening Tax-Exempt Organizations’ Filing Information
       Provides Minimal Assurance That Potential Terrorist-Related
                         Activities Are Identified




                     Abbreviations

EO             Exempt Organizations
HSPD           Homeland Security Presidential Directive
IRS            Internal Revenue Service
OFAC           Office of Foreign Assets Control
TSC            Terrorist Screening Center
                       Screening Tax-Exempt Organizations’ Filing Information
                     Provides Minimal Assurance That Potential Terrorist-Related
                                       Activities Are Identified




                                             Background

Uncovering the root of terrorist financing has become
one of the biggest challenges facing the United States in             The use of charities and
                                                                    nonprofit organizations is a
the aftermath of the September 11, 2001, terrorist                  significant source of alleged
attacks. One significant source of alleged terrorist             terrorist activities and threatens
support has been the use of charities and nonprofit                to erode public confidence in
organizations to raise money, move persons and                     the integrity of the charitable
materials, and provide logistical support for the                            community.
international operations. Beyond the horrors caused by
terrorist acts, the possibility that the attacks could have been facilitated by charitable
organizations exempt from paying taxes threatens to erode public confidence in both the integrity
of the charitable community and the ability of the Internal Revenue Service (IRS) to regulate this
community.
In Fiscal Year 2006, there were about 1.6 million tax-exempt organizations (excluding churches)
with $2.4 trillion in assets and $1.2 trillion in annual revenues, and the numbers are growing. In
recent years, there has been significant growth in the number of entities recognized as exempt,
with more than 80,000 determination applications1 closed annually. In addition, the latest
available IRS statistics show that, for Tax Year 2003, charitable tax-exempt organizations filed
approximately 300,000 information returns2 that were subject to review for possible terrorist
connections. Public concern about the oversight of charities and terrorist financing has resulted
in increased attention from the media and oversight bodies. The New York Times recently noted,
“In the last decade . . . the number of charities and their assets exploded and State and Federal
money spent monitoring them remained flat or declined.” Furthermore, the Senate Finance
Committee is investigating whether any exempt organizations are linked to terrorism and, if so,
how the IRS and others are handling the problem.
As the Federal Government agency responsible for tax administration, the IRS role is to assure
that Federal tax laws are not violated, including determining whether tax-exempt charities are
potentially being used to divert charitable funds to support terrorist activities. The Exempt
Organizations (EO) function of the Tax Exempt and Government Entities Division has primary
responsibility to ensure tax-exempt status is not granted to organizations used to support terrorist


1
  To be exempt as a charitable nonprofit entity, an organization must file an application for recognition of exemption
with the IRS (Application for Recognition of Exemption Under Section 501(c)(3) of the Internal Revenue Code
(Form 1023)).
2
  This includes Return of Organization Exempt From Income Tax (Form 990), Short Form Return of Organization
Exempt From Income Tax (Form 990-EZ), and Return of Private Foundation (Form 990-PF).
                                                                                                              Page 1
                       Screening Tax-Exempt Organizations’ Filing Information
                     Provides Minimal Assurance That Potential Terrorist-Related
                                       Activities Are Identified



activities. In addition, the EO function analyzes annual information returns filed by tax-exempt
organizations to identify any organizations potentially involved in terrorist-related activities.
A key tool in the fight against terrorism is the various terrorist watch lists that contain
consolidated information on the names and other identifying information for all known or
suspected terrorists. Traditionally, Federal Government agencies have used various means,
developed in response to their individual missions, to manage terrorist watch list information.
The attacks of September 11, 2001, underscored the need for standardization and consolidation
of the terrorist watch lists to help ensure homeland security.
On September 16, 2003, Homeland Security Presidential Directive-6 (HSPD-6) was signed,
directing that a center be established to consolidate the Federal Government’s approach to
terrorism screening and to provide for the appropriate and lawful use of terrorist information in
screening processes. As a result, the Attorney General, the Director of the Central Intelligence
Agency, and the Secretaries of the Departments of State and Homeland Security signed a
Memorandum of Understanding creating the Terrorist Screening Center (TSC) and placed it
within the Federal Bureau of Investigation, United States Department of Justice. The TSC began
operations on December 1, 2003, and is charged with consolidating and maintaining the United
States Government’s terrorist watch list.3 The Secretaries of the Departments of Defense and the
Treasury signed an addendum to the Memorandum to join the partnership supporting the TSC in
August 2004.
As of December 31, 2005, the Department of the Treasury had applied economic sanctions that
have blocked almost $14 million belonging to several international terrorist organizations or
other related designated parties.4 In addition, $368.9 million in assets of designated State
sponsors of terrorism have been blocked pursuant to economic sanctions imposed by the United
States.
This review was performed at the Tax Exempt and Government Entities Division Headquarters
in Washington, D.C.; the EO Determinations office in Cincinnati, Ohio; the EO Examinations
office in Dallas, Texas; and the Submission Processing unit of the Ogden, Utah, Submission
Processing Site during the period August through December 2006. The audit was conducted in
accordance with Government Auditing Standards. Detailed information on our audit objective,
scope, and methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.

3
  The TSC was assigned responsibility for consolidating terrorist screening information to be used by Federal, State,
local, territorial, tribal, and foreign governments and private sector organizations across the country and around the
world. The TSC terrorist watch list is a consolidated database that contains all information permitted by law on the
identities of individuals known or appropriately suspected to be involved in terrorist activities obtained from these
entities.
4
  This figure does not include amounts reported to the Department of the Treasury Office of Foreign Assets Control
as blocked and for which the appropriateness of the blocking is under review. We could not determine if any of
these organizations were tax-exempt organizations.
                                                                                                              Page 2
                        Screening Tax-Exempt Organizations’ Filing Information
                      Provides Minimal Assurance That Potential Terrorist-Related
                                        Activities Are Identified




                                       Results of Review

The Current Screening of Tax-Exempt Documents for Potential
Terrorist Activities Is Inefficient and Incomplete
The IRS5 does not systemically match filing data of tax-exempt organizations against a
comprehensive list of potential terrorists to identify
instances in which charitable and other
nonprofit organizations may be linked to terrorist            The IRS’ manual screening of
activities. Instead, IRS personnel manually review all       tax-exempt documents and use
tax-exempt documents and compare information from             of a limited terrorist watch list
them to a United States Department of the Treasury          provides minimal assurance that
terrorist watch list. This list, however, is incomplete         tax-exempt organizations
                                                             potentially involved in terrorist
compared to the more comprehensive terrorist watch list           activities are identified.
available for use by all Federal Government agencies.
As a result of using a manual process and a limited
terrorist watch list, the IRS provides only minimal
assurance that tax-exempt organizations potentially involved in terrorist activities are being
identified.

The systemic matching of a more comprehensive terrorist watch list should be
considered when screening tax-exempt documents
The EO function could significantly increase its effectiveness in identifying potential terrorist
financing and safeguarding the charitable sector from terrorist abuse by developing and
enhancing automated systems to compare the large amount of tax-exempt data processed
annually against the list of known or suspected terrorist-related organizations. Currently, IRS
personnel review two key filings by tax-exempt organizations to identify potential links to
terrorist activities:
    •    Application for Recognition of Exemption Under Section 501(c)(3) of the Internal
         Revenue Code (Form 1023). This Form is required by most organizations seeking to be
         recognized as tax exempt by the Federal Government. Generally, Forms 1023 are


5
  References in this report to the IRS relate specifically to the IRS functions primarily responsible for screening
tax-exempt organizations’ filing information for terrorist-related activities. Forms 1023 are reviewed by EO
function personnel in Cincinnati, Ohio. Forms 990 are reviewed by Wage and Investment Division personnel in
Ogden, Utah.
                                                                                                               Page 3
                         Screening Tax-Exempt Organizations’ Filing Information
                       Provides Minimal Assurance That Potential Terrorist-Related
                                         Activities Are Identified



           processed by EO function personnel in Cincinnati, Ohio; they began screening
           Forms 1023 for potential terrorist connections in October 2002, following a brief trial
           period.
      •    Return of Organization Exempt From Income Tax (Form 990).6 After receiving
           tax-exempt recognition, most organizations are required to file a Form 990 annually to
           report their financial transactions and activities. Form 990 is the primary source of
           current information on the operations of tax-exempt organizations. Generally, Forms 990
           are filed at the Ogden Submission Processing Site. Currently, only Forms 990 filed by
           Section 501(c)(3)7 organizations are manually reviewed for potential terrorist-related
           connections. Ogden personnel began screening Forms 990 for potential terrorist
           connections in April 2005.
               Table 1: Key Information Contained On Forms 1023 and 990
                            Information Provided                     Form 1023         Form 990
                 Employer Identification Number                            X                  X
                 Articles of Incorporation                                 X
                 Bylaws                                                    X
                 Purpose and Activities of the Organization                X                  X
                 Revenues (and their sources)                              X                  X
                 Expenditures (and their nature)                           X                  X
                 Balance Sheet for the Most Recently Completed             X                  X
                 Tax Year
                 Names, Titles, and Addresses of Officers,                 X                  X
                 Directors, and Trustees
                 Compensation Amounts                                      X                  X
                 Names and Addresses of the Five Highest Paid              X                  X
                 Employees and Independent Contractors (if
                 more than $50,000)
                 Contributors to the Organization of More Than                                X
                 $5,000 During the Year
                 Payments to Highly Paid Employees,                                           X
                 Contractors, and Certain Transactions and
                 Loans
                Source: Forms 1023 and 990 and related instructions.

Currently, IRS personnel manually review both Forms 1023 and 990 during processing to
identify individuals or organizations potentially involved in terrorist activities. They check


6
    All future references to Form 990 in this report include Forms 990, 990-EZ, and 990-PF.
7
    Internal Revenue Code Section 501(c)(3) (2006).
                                                                                                  Page 4
                      Screening Tax-Exempt Organizations’ Filing Information
                    Provides Minimal Assurance That Potential Terrorist-Related
                                      Activities Are Identified



names/organizations on these Forms against a terrorist watch list maintained by the United States
Department of the Treasury Office of Foreign Assets Control (OFAC).8 The OFAC terrorist
watch list is updated frequently. Potential matches are forwarded to an EO function Tax Law
Specialist for additional review. If a match is confirmed, the case will be referred to the IRS
Criminal Investigation function for review.
This manual process has identified only a small number of potential terrorist-related cases.
Specifically:
    •   During the period January 2003 through September 2006, more than 80,000 Forms 1023
        were filed annually by organizations requesting tax-exempt status. However, only
        93 cases were initially identified by the EO Determinations office as having potential
        terrorist-related connections for the period October 1, 2005, through September 5, 2006.
        Three of these cases were determined to merit a further detailed terrorist-related review
        by the EO Technical and Quality Assurance office in Washington, D.C. One case was
        subsequently approved for tax-exempt status; the other two were still under review as of
        December 2006. EO function personnel stated that, prior to October 2005, an additional
        47 cases were identified as having potential terrorist connections; however, no summary
        information was recorded to determine the resolution of these cases by function
        personnel.
    •   The latest available IRS statistics show charitable tax-exempt organizations filed
        approximately 300,000 Forms 990 for Tax Year 2003; however, only 201 were initially
        identified as having potential terrorist-related connections for the period April 2005
        through October 2006 by Ogden Submission Processing Site personnel. After further
        review, IRS management determined these Forms 990 did not contain a match to the
        OFAC terrorist watch list.
EO function management agreed an automated process to check tax-exempt documents for
possible terrorist-related connections would result in a more efficient and effective identification
process. Since 2004, Tax Exempt and Government Entities Division management has been
working with the Criminal Investigation function to test the systemic matching of Forms 990
Schedule of Contributors (Schedule B) data for possible terrorist connections. Division
management’s objective is to use more sophisticated tools to identify entities and organizations
that may be associated with possible terrorists. This will be accomplished by comparing filing
data against databases of multiple terrorist watch lists, including the OFAC terrorist watch list.
This project is currently in the testing mode, and the implementation date is unknown. In the
long term, Division management stated they would like Criminal Investigation function
personnel to also systemically match Form 990 Organization Exempt Under Section 501(c)(3)
(Schedule A) data (e.g., compensation, lobbying expenditures) for possible terrorist connections.

8
 The OFAC terrorist watch list contains names of organizations, countries, and some individuals whose assets have
been frozen because they have committed or pose a significant risk of committing acts of terrorism.
                                                                                                          Page 5
                       Screening Tax-Exempt Organizations’ Filing Information
                     Provides Minimal Assurance That Potential Terrorist-Related
                                       Activities Are Identified



The ability of the EO function to perform systemic matching of tax-exempt filing data is also
limited by the amount and types of electronic data available. For tax years ending on or after
December 31, 2005, a tax-exempt organization is statutorily required9 to electronically file
Form 990 if the organization has $100 million or more in total assets and files 250 or more
returns10 a year. This requirement was expanded in 2007 to include tax-exempt organizations
with total assets of $10 million or more that file 250 or more returns a year. In Calendar
Year 2006, approximately 15,000 Forms 990 were filed electronically. However, as indicated
earlier, this is only a small portion of the total Forms 990 filed annually. The majority of
Forms 990 are filed on paper and subsequently imaged by IRS personnel. These imaged data are
not as easily matched by a systemic process as electronically filed data.
In addition, the IRS does not currently have a system to allow tax-exempt organizations to file
Forms 1023 electronically. EO function management stated the electronic filing of Forms 1023
is a long-range goal; however, there are no specific plans at this time for an implementation date
for this functionality. Management also indicated a system is currently being implemented that
will enhance the imaging of Forms 1023 and will enable them to obtain electronically a limited
amount of data that may be helpful in the screening process. This system is scheduled for full
implementation in October 2007.11
The development of a process that will enable the IRS to systemically match Form 990
information, as well as consideration of matching Form 1023 data when available in usable
format, will significantly increase the probability of identifying potential terrorist activities
related to tax-exempt organizations, allow for more effective use of IRS resources, and help
preserve the public’s trust in the charitable sector.

A more comprehensive terrorist watch list is available and may be more
beneficial to the IRS in its screening process
After a brief test period, the EO function started using the OFAC terrorist watch list in
October 2002 to identify potential terrorist organizations and/or individuals during the
application screening process. However, the TSC terrorist watch list may be more beneficial to
the IRS in its screening of tax-exempt organizational data. At the time of our review, we
determined the OFAC terrorist watch list used by the EO function had approximately
1,600 unique terrorist/organizations names or aliases, while the TSC terrorist watch list
contained more than 200,000 names suspected of being involved in terrorist activities.




9
  26 United States Code Section 6011 (2006).
10
   Types of returns include income, excise, and employment tax as well as information.
11
   The Treasury Inspector General for Tax Administration is currently reviewing this system in another audit,
Review of the Tax Exempt and Government Entities Division’s Development of the Tax Exempt Determination
System Release 2 (Audit # 200610047).
                                                                                                           Page 6
                       Screening Tax-Exempt Organizations’ Filing Information
                     Provides Minimal Assurance That Potential Terrorist-Related
                                       Activities Are Identified



Department of the Treasury officials advised us that the EO function is not required to use the
TSC terrorist watch list when reviewing filing data of tax-exempt organizations. According to
EO function management, they decided to use the OFAC terrorist watch list because the OFAC
is the key function in the Department of the Treasury responsible for carrying out the
Department’s responsibilities under Executive Order 13224.12 Function management officials
believe the OFAC is well positioned to identify suspicious persons who might take advantage of
the financial markets to raise or divert funds for terrorist purposes or to undermine the financial
system for such purposes. According to function management, the OFAC terrorist watch list
identifies the organizations and individuals of primary concern to the EO function as it identifies
all Specially Designated Global Terrorists, Foreign Terrorist Organizations, and Specially
Designated Terrorists who are subject to economic sanctions.
In July 2002, the President issued the National Strategy for Homeland Security, which was
designed to create a “comprehensive plan for using America’s talents and resources to enhance
our protection and reduce our vulnerability to terrorist attacks.” This Strategy emphasized that
no one agency or computer network at the time integrated all available homeland security
information. Rather, the information was contained within several Federal, State, and local
systems, and much of it was redundant or supplemental to other terrorist watch list data.
HSPD-6 required the Attorney General to establish an organization to “consolidate the [Federal]
Government’s approach to terrorism screening and provide for the appropriate and lawful use of
Terrorist Information in screening processes.” Specifically, the TSC was assigned responsibility
for consolidating terrorist screening information to be used by Federal, State, local, territorial,
tribal, and foreign governments and private sector organizations across the country and around
the world. Furthermore, this organization is required to maintain a consolidated terrorist
screening database containing a sensitive but unclassified subset of the information obtained
from other entities.
The intent of the consolidated list was to implement a coordinated and comprehensive approach
to terrorist-related screening. The TSC supports Federal, State, local, territorial, and tribal law
enforcement agencies and some foreign governments that conduct terrorist screening by making
its terrorist watch list information available to them for screening purposes. In addition,
HSPD-11 was signed on August 27, 2004, and required the Secretary of the Department of
Homeland Security, in coordination with other Federal Government departments and agencies, to
submit a report that outlines a strategy to enhance the effectiveness of terrorist-related screening
activities. The report should encourage innovation that exceeds established standards; ensure
flexibility to respond to changing threats and priorities; build upon existing systems and best
practices and, where appropriate, integrate, consolidate, or eliminate duplicative systems used for
terrorist-related screening; and enhance information flow between various screening programs.


12
  Executive Order 13224 was signed on September 23, 2001, and authorized the Federal Government to freeze the
assets of foreign individuals and entities that commit or pose a significant risk of committing acts of terrorism.
                                                                                                           Page 7
                    Screening Tax-Exempt Organizations’ Filing Information
                  Provides Minimal Assurance That Potential Terrorist-Related
                                    Activities Are Identified



Although screening tax-exempt documents against a terrorist watch list does not guarantee the
identification of all potential terrorist connections, checking against a comprehensive,
consolidated terrorist watch list increases the possibility of identifying individuals already known
to be or suspected of being involved in terrorist-related activities. We could not determine if
there were undetected potential terrorist cases; however, we believe the EO function’s use of the
OFAC terrorist watch list, instead of a more comprehensive terrorist watch list, may have
contributed to the small number of potential terrorist-related cases identified to date. The TSC
terrorist watch list was created pursuant to HSPD-6 and should contain all information permitted
by law to be maintained on the identities of individuals known or appropriately suspected to be
involved in terrorist activities, while the OFAC terrorist watch list contains organizations,
countries, and individuals that have had economic sanctions brought against them. Thus, it is
probable that some individuals listed on the TSC terrorist watch list will not be listed on the
OFAC terrorist watch list because of the different makeup of the lists. If the IRS does not use all
available information to detect possible links of charities and nonprofit organizations to known
or suspected terrorist organizations, there is a risk that these charities will not be reported to the
Federal Government authorities fighting terrorism.

Recommendations
The Director, EO, in coordination with key IRS and external stakeholders, should:
Recommendation 1: Develop and implement a long-term strategy to automate the matching
of Forms 1023 and 990 information against a consolidated terrorist watch list to initially identify
potential terrorist activities related to tax-exempt organizations.
       Management’s Response: EO function management agreed with the
       recommendation and will develop a long-term strategy to automate checking of names on
       Forms 1023 and 990 against a terrorist watch list. Function management is currently
       testing and evaluating software that will check names on Forms 990; they will develop
       similar plans for checking names on Forms 1023.
Recommendation 2: Evaluate whether more comprehensive terrorist watch lists, including
any applicable TSC information, should be used in conjunction with the Department of the
Treasury OFAC list during the screening of tax-exempt filing data, to improve the identification
of organizations and/or individuals potentially involved in terrorist-related activities.
       Management’s Response: EO function management agreed with the
       recommendation. They will meet with Federal Bureau of Investigation personnel to
       evaluate how the TSC information may serve their needs and will evaluate whether other,
       more comprehensive terrorist watch lists can be used.




                                                                                               Page 8
                       Screening Tax-Exempt Organizations’ Filing Information
                     Provides Minimal Assurance That Potential Terrorist-Related
                                       Activities Are Identified



                                                                                                   Appendix I


          Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess the EO function’s efforts to identify and work
cases involving tax-exempt organizations and/or related individuals potentially involved in
terrorist-related activities. We reviewed the internal controls used to record and process potential
terrorist-related cases identified during EO function processing and identified several minor
internal control weaknesses involving tracking controls for cases. We verbally informed
function management of these weaknesses during our fieldwork, and appropriate actions were
taken to improve the case-tracking processes. To accomplish our objective, we:
I.       Determined the EO function’s process for identifying and working cases involving
         tax-exempt organizations and/or related individuals potentially involved in
         terrorist-related activities.
         A. Interviewed applicable function management to determine the process followed to
            identify and work cases involving organizations and/or individuals potentially
            involved in terrorist-related activities associated with determinations and information
            returns processing.
         B. Obtained and reviewed any procedures developed by the function in this area.
         C. Determined how the function ensures it is using the most current version of the
            OFAC terrorist watch list and determined whether employees are using it.
II.      Determined any results of the EO function’s efforts to identify and work cases involving
         tax-exempt organizations and/or related individuals potentially involved in
         terrorist-related activities.
         A. Obtained any available statistics on the function’s efforts to identify organizations
            and/or individuals potentially involved in terrorist-related activities including the
            number of staff involved, volume of all determination applications1 and information
            returns processed (including amended returns), and any other pertinent statistical data.
         B. Identified any information on the number of determination applications and
            information returns that were identified by function staff as having possible
            terrorist-related activities.


1
 To be exempt as a charitable nonprofit entity, an organization must file an application for recognition of exemption
with the IRS (Application for Recognition of Exemption Under Section 501(c)(3) of the Internal Revenue Code
(Form 1023)).
                                                                                                             Page 9
                   Screening Tax-Exempt Organizations’ Filing Information
                 Provides Minimal Assurance That Potential Terrorist-Related
                                   Activities Are Identified



       C. Determined the number and status of referrals made by the function to other entities
          resulting from the function’s identification of organizations and/or individuals
          potentially involved in terrorist-related activities.
III.   Determined the adequacy of the EO function’s coordination efforts with other IRS
       divisions or external entities to help in its efforts to identify and work cases involving
       tax-exempt organizations and/or related individuals potentially involved in
       terrorist-related activities.
       A. Identified types of data (e.g., data from States, the Department of State, and the
          OFAC terrorist watch list) received from and provided to other entities and how often
          this occurs.
       B. Determined the status of the Criminal Investigation function’s efforts to develop a
          database that will facilitate electronic queries and analysis of Returns of Organization
          Exempt From Income Tax (Form 990) Schedule of Contributors (Schedule B)
          contributor information to identify potential terrorist-related activities.




                                                                                             Page 10
                  Screening Tax-Exempt Organizations’ Filing Information
                Provides Minimal Assurance That Potential Terrorist-Related
                                  Activities Are Identified



                                                                             Appendix II

                 Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs)
Gerald T. Hawkins, Acting Director
Jeffrey M. Jones, Audit Manager
Kenneth Forbes, Lead Auditor
Deadra English, Senior Auditor
Cheryl Medina, Senior Auditor




                                                                                    Page 11
                  Screening Tax-Exempt Organizations’ Filing Information
                Provides Minimal Assurance That Potential Terrorist-Related
                                  Activities Are Identified



                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Wage and Investment Division SE:W
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Deputy Commissioner, Wage and Investment Division SE:W
Chief, Criminal Investigation SE:CI
Director, Customer Account Services, Tax Exempt and Government Entities Division
SE:T:CAS
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Exempt Organizations, Tax Exempt and Government Entities Division
SE:T:EO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Director, Communications and Liaison, Tax Exempt and Government Entities Division
       SE:T:CL
       Director, Planning and Strategy, Criminal Investigation SE:CI:S:PS
       Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                   Page 12
      Screening Tax-Exempt Organizations’ Filing Information
    Provides Minimal Assurance That Potential Terrorist-Related
                      Activities Are Identified



                                                    Appendix IV

Management’s Response to the Draft Report




                                                           Page 13
  Screening Tax-Exempt Organizations’ Filing Information
Provides Minimal Assurance That Potential Terrorist-Related
                  Activities Are Identified




                                                       Page 14
